OIG Investigative Reports, Press Release: Harrisburg, PA June 28, 2010 - Federal Officials Announce the Sentencing of a Former Member of the Wilkes-Barre Area School District Board of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Middle District of Pennsylvania
William J. Nealon Federal Building
235 N. Washington Avenue
P.O. Box 309,  Suite 311
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax  (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754,, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717)  221-4493/ 221-2246 or (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
PRESS RELEASE
FOR IMMEDIATE RELEASE
June 28, 2010
CONTACT:   Peter J. Smith
U.S. Attorney
(717) 221-4482
FEDERAL OFFICIALS ANNOUNCE THE SENTENCING OF A FORMER MEMBER OF THE
WILKES-BARRE AREA SCHOOL DISTRICT BOARD OF EDUCATION
Peter J. Smith, United States Attorney for the Middle District of Pennsylvania; Janice Fedarcyk,
Special Agent in Charge, Federal Bureau of Investigation; Troy Stemen, Acting Special Agent in
Charge, Internal Revenue Service-Criminal Investigation Division; and Kathy Tighe, Inspector
General of the U.S. Department of Education, Office of Inspector General jointly announced today
that Frank Pizzella, Jr., a former member of the Wilkes-Barre Area School District Board of
Education, was sentenced Friday by United States District Court Judge James M. Munley. Judge
Munley sentenced Pizzella to a two-year term of probation, five months of home confinement and a
$10,000 fine.
In 2004, before Pizzella was elected to the Board of Education, Pizzella conspired with others to
corruptly give $5,000 in cash to a member of the Wilkes-Barre Area School District Board of
Education in exchange for a teaching job. In September 2009, federal officials announced the charges
against Pizzella.
According to U.S. Attorney Smith, to date, thirty individuals have been charged with criminal conduct
since January 2009 in the on-going investigation targeting public corruption in Luzerne County.
This case is part of an on-going investigation by the Federal Bureau of Investigation and the Internal
Revenue Service and is being prosecuted by a team of federal prosecutors led by Senior Litigation
Counsel Gordon Zubrod and includes Assistant U.S. Attorneys William Houser, Michael Consiglio,
Amy Phillips John Gurganus and Criminal Division Chief Christian Fisanick. Smith praised this team
of investigators and prosecutors for their tireless efforts on behalf of the people of Luzerne County.
***
Press Releases Index Page
Top
Printable view
Last Modified: 07/02/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov